No. ___________

In The
Supreme Court of the United States
MANTISSA CORP.,
Petitioner,
v.

ONDOT SYSTEMS, INC., LONE STAR NATIONAL BANK, LONE STAR NATIONAL
BANCSHARES-TEXAS, INC.,
Respondents.
On Petition For A Writ Of Certiorari To The
United States Court Of Appeals
For The Federal Circuit

CERTIFICATE OF COMPLIANCE

JOHN DEMARCO
YOUNG BASILE HANLON & MACFARLANE, P.C.
700 Milam St., Ste. 1300
Houston, TX 77002
(248) 244-0106
demarco@youngbasile.com
COUNSEL OF RECORD
KENNETH A. GODLEWSKI
HUNTER TAUBMAN FISCHER LLC
1201 15th Street, NW, Ste. 200
Washington, DC 20005
(202) 704-5860
kgodlewski@htflawyers.com

Pursuant to Supreme Court Rules 33.2(b), I certify that the Petition for a Writ
of Certiorari contains 36 pages, excluding the parts of the document that are
exempted by Supreme Court Rule 33.1(d), which is prepared using Century
Schoolbook 12-point typeface. This certificate was prepared in reliance on the pagecount function of the wordprocessing system (Microsoft Word) used to prepare the
document.
I declare under the penalty of perjury that the foregoing is true and correct.
Dated: October 1, 2020

Respectfully submitted,
/s/ John Demarco
John Demarco
Young Basile Hanlon & MacFarlane, P.C.
700 Milam St., Suite 1300
Houston, TX 77002
832-871-5058 Telephone
248-649-3338 Facsimile
demarco@youngbasile.com
Counsel of Record
/s/ Kenneth A Godlewski
Kenneth A Godlewski
Hunter Taubman Fischer LLC
1201 15th Street, NW, Suite 200
Washington, DC 20005
202-704-5860 Telephone
202-659-2697 Facsimile
kgodlewski@htflawyers.com
Counsel for Petitioner Mantissa Corp.

